                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

 Case Number: 109030015                                                                       Page 1 of 1



                  A proactive review of NSF awards that showed excessive expenditures prior to the award
          financial closing was initiated. After reviewing the award 1 it was detennined that funds 2 were
          spent after the 6/30106 expiration date.

          After reviewing the documentation by the institute3 ; no further action appears to be necessary to
          explain either the expenses incurred by the award or questionable travel.

          Based on the above, this case is closed.




NSF OIG Fonn 2 (11102)
